               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     City Delivery — Street Efficiency
   Southern, Pacific, and Western Areas

                       Audit Report




                                              May 24, 2013

Report Number DR-AR-13-004
                                                                          May 24, 2013

                                                  City Delivery — Street Efficiency
                                              Southern, Pacific, and Western Areas

                                                        Report Number DR-AR-13-004




BACKGROUND:                                   indicated that they are somewhat limited
U.S. Postal Service street operations         in providing oversight while letter
comprise every duty a letter carrier          carriers are performing street delivery
performs. This includes loading the           due to office workload priorities.
delivery vehicle, collecting mail along
the route, and returning to the delivery      Reducing 340,499 workhours and
unit to unload the delivery vehicle. In       improving supervision would increase
fiscal year (FY) 2012, city letter carriers   overall efficiency in these districts and
delivered mail on 143,436 routes and          provide a potential cost avoidance of
city delivery street operations workhours     about $14 million annually. This audit
totaled 268 million of the overall 347        also identified assets at risk totaling
million office and street workhours           $13,466 at four delivery units due to
(77 percent). In addition, in FY 2012,        unsecured retail stamp inventory.
actual street workhours exceeded              Management immediately initiated
projected street workhours by over            corrective action on these security
1.6 million.                                  matters.

Our objective was to assess the               WHAT THE OIG RECOMMENDED:
efficiency of street operations in the        We recommended the vice presidents,
Bay-Valley, Dakotas, Houston,                 Southern, Pacific, and Western Area
Oklahoma, and Portland districts.             Operations, instruct managers in the
                                              Bay-Valley, Dakotas, Houston,
WHAT THE OIG FOUND:                           Oklahoma, and Portland districts to
The Bay-Valley, Dakotas, Houston,             reduce workhours by 340,499. We also
Oklahoma, and Portland districts have         recommended reinforcing policies and
opportunities for enhanced street             procedures for supervising city delivery
delivery efficiency. We determined the        street operations at these districts’
districts could use about 7 fewer             delivery units to eliminate inefficient
minutes of street time per day on each        practices. Further, we recommended
carrier route. This would allow for a         requiring managers to establish, review,
reduction of 340,499 workhours. We            and update integrated operating plans to
found that management did not always          ensure that mail arrives timely and in
reinforce policies and procedures for         route order for easy retrieval by letter
supervising city delivery street              carriers.
operations. In addition, street
supervision was inconsistent at the           Link to review the entire report
delivery units, allowing for some
inefficiency in operations and outdated,
integrated operating plans. Officials
May 24, 2013

MEMORANDUM FOR:             JO ANN FEINDT
                            VICE PRESIDENT, SOUTHERN AREA OPERATIONS

                            DEAN J. GRANHOLM
                            VICE PRESIDENT, PACIFIC AREA OPERATIONS

                            DREW T. ALIPERTO
                            VICE PRESIDENT, WESTERN AREA OPERATIONS


                                 E-Signed by Robert Batta
                               VERIFY authenticity with e-Sign




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Audit Report – City Delivery — Street
                            Efficiency Southern, Pacific, and Western Areas
                            (Report Number DR-AR-13-004)

This report presents the results of our audit of City Delivery — Street Efficiency in the
Southern, Pacific, and Western Areas (Project Number 13XG001DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director, Delivery
and Post Office Operations, or me at 703-248-2100.

Attachments

cc: Edward F. Phelan
    Elizabeth A. Schaefer
    Philip F. Knoll
    Severo Garza
    Corporate Audit and Response Management
City Delivery — Street Efficiency Southern, Pacific,                                                               DR-AR-13-004
 and Western Areas



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Street Delivery Efficiency ................................................................................................ 2

   Street Supervision ....................................................................................................... 2

   More Efficient Carrier Practices ................................................................................... 3

   More Efficient Loading Practices ................................................................................. 4

   Delivery Point Sequencing Handling ........................................................................... 4

   Integrated Operating Plan............................................................................................ 5

Assets at Risk ................................................................................................................. 6

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 7

Appendix A: Additional Information ................................................................................. 8

   Background ................................................................................................................. 8

   Objective, Scope, and Methodology ............................................................................ 8

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Monetary and Other Impacts..................................................................... 11

Appendix C: Management's Comments ........................................................................ 12
City Delivery — Street Efficiency Southern, Pacific,                                                     DR-AR-13-004
 and Western Areas



Introduction

This report presents the results of our audit of City Delivery — Street 1 Efficiency (Project
Number 13XG001DR000) in the Southern, Pacific, and Western Areas. We discussed
this topic with the vice president, Delivery and Post Office Operations, and agreed to a
value proposition audit for fiscal year (FY) 2012. 2 Our objective was to assess the
efficiency of street operations in the Bay-Valley, Dakotas, Houston, Oklahoma, and
Portland districts. This audit addresses operational risk and is the final report in a series
conducted by the U.S. Postal Service Office of Inspector General (OIG). See
Appendix A for additional information about this audit.

In FY 2012, city letter carriers delivered mail on 143,436 routes. The city delivery street
operations workhours totaled 268 million (77 percent) of the overall 347 million office
and street workhours. In FY 2012, the U.S. Postal Service exceeded projected 3 street
workhours by over 1.6 million. 4

Conclusion

The Bay-Valley, Dakotas, Houston, Oklahoma, and Portland districts have opportunities
for enhanced street delivery efficiency. We determined the districts could use about
7 fewer minutes of street time per day on each carrier route. 5 We found that
management did not always reinforce policies and procedures for supervising city
delivery street operations. In addition, street supervision was inconsistent at the delivery
units, allowing for some inefficiency in operations. Officials indicated they are somewhat
limited in providing oversight while carriers are performing street delivery due to office
workload priorities. Reducing workhours by 340,499 and improving supervision would
increase overall efficiency in these districts and provide potential cost avoidance of
about $14 million annually (see Appendix B).

This audit also identified assets at risk totaling about $13,466 due to inadequate asset
safeguards related to unsecured retail stamps inventory. Management immediately
initiated corrective action on these security matters.




1
  Street delivery (or street time) is comprised of every duty a carrier performs from loading the vehicle to delivering
and collecting mail along the route and returning to the delivery unit to unload the vehicle.
2
  An agreement between the director, Delivery and Post Office Operations, and vice president, Delivery and Post
Office Operations, on work that will address issues of importance to the Postal Service.
3
  When a route actually uses fewer street hours than projected, a negative street variance occurs. Conversely, when
a route uses more street hours than projected, this is a positive street variance.
4
  The 1.6 million workhours are based on actual street hours over the established route's base street hours for
FY 2012.
5
  Each route's street time (workhours required to complete street delivery) is established during the annual route
review or inspection.
                                                             1
City Delivery — Street Efficiency Southern, Pacific,                                                    DR-AR-13-004
 and Western Areas



Street Delivery Efficiency

Our review of selected delivery units determined that management did not always
reinforce Postal Service policies and procedures for street operations at delivery units
and eliminate inefficient and inconsistent practices.

For example, management needs to ensure that:

   There is a consistent supervisory presence on the street.

   Carriers deliver mail using the most efficient habits to avoid unnecessarily incurring
    additional street time.

   Carriers load their delivery vehicles using more efficient ways to avoid increasing
    street time.

   Delivery point sequence (DPS) 6 letters processed at the plant arrive at delivery units
    staged in route order for easy retrieval by carriers.

   Delivery unit and processing plant managers establish, coordinate, and update
    integrated operating plans (IOPs)7 for units to receive proper mail types at scheduled
    times so carriers do not have to wait on mail before departing for the street and
    potentially delay their return to the office.

Street Supervision

Supervisors did not always provide sufficient oversight of street operations. When
asked, several carriers stated they occasionally observed supervisors on the street but
not on a regular basis. Some supervisors stated that they would like to spend more time
observing street operations and correcting inefficient carrier habits, but their duties in
the office often prohibit them from performing these duties. One of the tools used to
assist in street supervision is Postal Service (PS) Form 3999, Inspection of Letter
Carrier Route, 8 which documents a carrier’s ability to perform their route on the street. 9
However, our review indicated that unit management often did not have current
PS Forms 3999. 10 In fact, we identified about 32 percent of these forms that were more

6
  DPS is a process to sort bar-coded letter mail at the processing plants and delivery units into the carrier’s Line of
Travel (LOT). Mail is then taken directly to the street, with no casing time in the office.
7
  The IOP contract covers mail arriving from the plant and identifies the product of mail for each individual trip. The
primary purpose is to stabilize mail flow.
8
  A route examiner uses PS Form 3999 to record all pertinent information concerning a carrier's office and street
performance. Handbook M-39, Management of Delivery Services, Section 211.1 states in order to achieve and
maintain an appropriate daily workload for delivery units and routes, management will make at least annual route and
unit reviews consisting of an analysis of workhours, volumes, and possible deliveries.
9
  Handbook M-39, Section 134.11, dated March 1998 states that “all carriers are to be notified to expect daily
supervision on the street” and “. . . accompanying carriers on the street is an essential responsibility of management.”
10
   A current PS Form 3999 also allows a supervisor to know how long a section of deliveries should take and helps
monitor street performance.

                                                           2
City Delivery — Street Efficiency Southern, Pacific,                                                   DR-AR-13-004
 and Western Areas


than 1 year old. Having a current PS Form 3999 allows the supervisor to know the
carrier’s exact line-of-travel 11 and where a carrier should be and at what time.

More Efficient Carrier Practices

The OIG observed instances of carriers not using efficient practices while performing
street duties at the delivery units. We identified carriers:

    Not using satchels to hold mail (see Figure 1).
    Making multiple trips to vehicles during delivery stops.
    Not using the proper LOT.

                                  Figure 1. Carrier Not Using Satchel




                                  Source: OIG: Picture taken by the OIG October 2012.

We observed multiple instances of carriers not using satchels to deliver mail, thereby
making multiple trips to and from their vehicles for more mail and incurring additional
street time. Inconsistent or improper use of satchels results in carriers having to make
frequent trips to retrieve mail from their vehicles, thus incurring additional street time.
Postal Service procedures require carriers delivering mail on park-and-loop routes12 to
use their vehicles as movable relay boxes 13 from which the carrier withdraws a
substantial amount of mail and places it into their satchel before beginning the route.
Carriers are required to carry the appropriate amount of mail — up to the 35-pound limit
— to complete each assigned relay without additional trips to the vehicle or relay box. 14

We also observed some carriers not using the proper route LOT when delivering their
route. For example, we followed some carriers on their daily route deliveries and

11
   A presort level for certain price categories in which mailpieces are arranged by ZIP+4 codes in the order in which
the route is served by the carrier.
12
   A delivery method in which the carrier parks the vehicle and walks out and back over one or more streets,
delivering mail away from and looping back to the vehicle. The vehicle serves as a movable container holding the
mail.
13
   Bundles or strapped mail the carrier prepares in sacks for delivery to boxes on the carrier’s LOT. When the carrier
completes delivery of carry-out mail, they may pick up additional mail from relay boxes and continue this process until
the entire route is served.
14
   Postal Service Handbook M-41, City Delivery Carriers Duties and Responsibilities, Section 273, March 1998.

                                                           3
City Delivery — Street Efficiency Southern, Pacific,                                                     DR-AR-13-004
 and Western Areas


observed them going to and scanning their delivery points 15 out of sequence. Further
review of the Managed Service Points16 reports for these carriers confirmed that they
scanned delivery points out of LOT sequence.

More Efficient Loading Practices

The OIG observed instances of carriers not using efficient loading practices while on
street duty at delivery units. Although we traced some of the inefficient loading habits to
carriers waiting on mail or parcels, we observed opportunities for carriers to be more
efficient and save street time while loading delivery vehicles. For example, we observed
time-wasting practices, such as going to personal vehicles (see Figure 2) or carriers
rehandling parcels by placing them on the ground before placing them in the vehicle
(see Figure 3). In addition, carriers could become more efficient by not engaging in
unnecessary conversations or using their cellular telephones.

      Figure 2. Carrier Visiting Personal                                    Figure 3. Carrier Placing
           Vehicle During Loading                                             Parcels on the Ground




     Source: Picture taken by the OIG November 2012.                Source: Picture taken by the OIG-October 2012.

Delivery Point Sequencing Handling

At delivery units observed, DPS letters processed by the plant arrived at delivery units
in mail transport containers stacked on top of each other and not staged for easy
retrieval by the carriers. In most cases, a clerk or supervisor reorganized the DPS mail;
however, carriers unloaded and sorted through the containers to identify their routes'
DPS mail while on street time (see Figure 4).




15
   A single mailbox or other place where mail is delivered. It differs from a street address in that each address may
have several delivery points, such as an apartment flat, office, department, or other room.
16
   Managed Service Points Overview, Route and Carrier reports provide information showing carrier delivery times
and variances based on established route times.

                                                           4
City Delivery — Street Efficiency Southern, Pacific,                                                     DR-AR-13-004
 and Western Areas




                    Figure 4. DPS Mail Received in Un-Shelved Containers




                         Source: Picture taken by the OIG November 2012.


When carriers have to search for their DPS mail trays, it extends their street time
because their loading and departure is delayed. Postal Service policy 17 states that “. . .
mail processing should stage DPS letters for transport in shelved or modified containers
so individual trays do not have to be rehandled at the delivery unit.” In addition, policy18
states “DPS mail is not to be distributed to carriers, but staged near the exit for transport
to vehicles so they can be taken directly to the street without further handling.”

Integrated Operating Plan

Mail did not always arrive in the proper mail mix. We observed several instances in
which the majority of flat mail arrived with DPS mail on the last dispatch of the morning.
Further, we observed parcels arriving with DPS mail or arriving later than expected.
Contributing to this condition is the fact that employees at most of the units we visited
did not adhere to the IOP or management needs to renegotiate it. The Postal Service
designed the IOP to help stabilize mail flow and it is critical in establishing appropriate
staffing and reporting times to eliminate carrier delays. Delays can prolong carriers’
return time beyond 5 p.m. 19 District officials have had meetings with plant officials to
report these issues. Although mail arrival has improved, mail flow issues often remain
unresolved.

17
    Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (AMSOP) II
Guidebook, Section 2-6, 2007.
18
    Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (AMSOP) II
Guidebook, Section 4-5, 2007.
19
    The OIG previously reported on the effects of IOP issues on carrier office efficiency and workhours in the report
titled National Assessment of City Delivery Efficiency 2011 – Office Performance (Report Number DR-MA-11-002,
dated July 19, 2011).

                                                           5
City Delivery — Street Efficiency Southern, Pacific,                            DR-AR-13-004
 and Western Areas



Adjusting operations and improving supervision during carrier street delivery would
increase overall efficiency in the Bay-Valley, Dakotas, Houston, Oklahoma, and
Portland districts. We estimate this would result in the Postal Service potential cost
avoidance of about 340,499 workhours or $14 million annually (see Appendix B).

Assets at Risk

Safeguarding of assets requires management’s attention at four of the delivery units
visited. Stamp stock inventory was not properly secured and locked at all four locations.
The value of these unsecured items totaled $13,466. Physical access controls reduce
the security risk to Postal Service employees while safeguarding controls reduce the
potential for loss or misappropriation of assets. We brought these issues to the attention
of station management who took immediate action to correct the situation. As a result,
we are not making recommendations on these issues.

Recommendations

We recommend the vice presidents, Southern, Pacific, and Western Area Operations,
instruct managers in the Bay-Valley, Dakotas, Houston, Oklahoma, and Portland
districts to:

1. Reduce 340,499 workhours in the five districts cited.

2. Reinforce and ensure adherence to Postal Service policies and procedures for
   supervising city delivery street operations at delivery units and eliminate carrier
   inefficient practices during street time.

3. Increase street efficiency by preparing the integrated operating plans with facility
   processing managers and ensure delivery point sequence mail arrives timely and in
   route order for easy retrieval by carriers.

Management’s Comments

The Southern and Western Areas agreed with the findings, recommendations, and
monetary impact. The Pacific Area agreed to save street hours, but disagreed with the
number of hours and the methodology used to project savings. In response to
recommendation 1, Southern Area management agreed to reduce workhours by
continually communicating the need for improving street time in their districts.
Management plans to place additional emphasis on daily monitoring and continued
implementation of proactive process to improve street times with a target completion
date of September 30, 2013. Western Area management agreed to reduce workhours in
their districts by focusing on the street management program by June 30, 2013. Pacific
Area management agreed to reduce workhours in their districts by continuing focus on
reduction of street time. Pacific Area management stated the target implementation date
is June 30, 2013. Management disagreed with the methodology used to calculate the
number of street hours saved for their locations. Management asserted that the

                                                       6
City Delivery — Street Efficiency Southern, Pacific,                            DR-AR-13-004
 and Western Areas


methodology incorporates mostly park-and-loop routes and does not align with the more
diverse type of routes in the Bay-Valley District area.

In response to recommendation 2, all areas agreed to reinforce and ensure adherence
to Postal Service policies and procedures for supervising city delivery street operations
at delivery units and eliminating carrier inefficient practices during street time. Southern
Area management has created reports designed to monitor adherence to policies and is
tracking current PS Forms 3999 to ensure improved efficiencies. Western Area
management agreed to improve compliance through training and other review
processes and has set a target implementation date of June 30, 2013. Pacific Area
management stated there is an opportunity to improve compliance with the standard
operating procedures for street operations and specified a target implementation date of
June 30, 2013.

In response to recommendation 3, Southern and Western Area management agreed
they could increase street efficiency by preparing IOPs with facility processing
managers and ensuring that DPS mail arrives timely and in route order for easy retrieval
by carriers. Management indicated they would review IOPs annually in Quarter 1 of the
fiscal year. Pacific Area management agreed to update IOP/MAPS on a regular basis.
Pacific Area management stated they would address the IOP issue with units by June
30, 2013; however, they disagreed that an updated IOP has any impact on street
workhours.

See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers Southern, Western, and Pacific Area management’s comments and
subsequent discussions responsive to the recommendations and corrective actions
should resolve the issues identified in the report. In subsequent discussions, Pacific
Area management agreed with the workhours identified and the dollar value of the
potential cost avoidance. Further, management stated that IOPs might impact street
workhours if office operations are not managed correctly.

The OIG considers recommendations 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




                                                       7
City Delivery — Street Efficiency Southern, Pacific,                                                 DR-AR-13-004
 and Western Areas



                                 Appendix A: Additional Information

Background

Street operations is comprised of every duty a carrier performs from loading the vehicle
to delivering and collecting mail along the route and returning to the delivery unit to
unload the vehicle. Unlike the carrier office function, a supervisor is not always present
to observe each carrier as they conduct deliveries along their route, leaving
opportunities for inefficiency. To effectively manage this manual process and improve
productivity, delivery supervisors strive to eliminate process inefficiencies and manage
costs by accurately matching workload to workhours, adjusting or eliminating
unnecessary routes, managing staff resources, and following a rigorous standardization
of best practices.

In FY 2012 city delivery street operations workhours totaled 268 million (77 percent) of
the overall 347 million office and street workhours. 20 City letter carriers delivered mail on
143,436 routes but exceeded FY 2012 projected street workhours by over 1.6 million.

Objective, Scope, and Methodology

Our objective was to assess the efficiency of street operations in the Bay-Valley,
Dakotas, Houston, Oklahoma, and Portland districts. To accomplish our objective, we:

    Analyzed DOIS 21 street variance data to access performance and opportunities for
     street efficiency based on discussions with Postal Service officials and OIG experts.
     We also considered other factors that may impact street hours, such as growth,
     carrier pick-ups, accountable deliveries, and Every Door Direct Mail deliveries.

    Reviewed DOIS street variance hours from the EDW from October 1, 2011 through
     September 30, 2012.

    We analyzed 67 districts’ projected and actual street hours. We eliminated 57 22 of
     the total 67 districts previously reviewed to avoid double counts of cost savings. We
     excluded five districts based on logistics one district declared a disaster area due to
     damages by Hurricane Sandy, and prior audit work. We selected the remaining five
     districts and examined DOIS street variance hours. We also held discussions with
     Postal Service officials and OIG experts on data and analyses. We judgmentally
     selected 24 delivery units that used more street workhours than projected during
     FY 2012 to determine cost-saving opportunities for greater efficiency and reduced
     operating costs in the districts.


20
   Delivery Operations Information System (DOIS) workhours queried from the Enterprise Data Warehouse (EDW).
21
   A national computer application that helps supervisors manage delivery unit office tasks such as preparing mail
before delivery, planning street activities from the office, and handling route inspections and adjustments.
22
   The OIG's carrier optimal routing phase II and excess routes reports, issued in FY 2012, reviewed 47 and
10 districts, respectively.

                                                         8
City Delivery — Street Efficiency Southern, Pacific,                         DR-AR-13-004
 and Western Areas


   Reviewed and discussed applicable policy and procedures for street operations with
    management in selected delivery units. We judgmentally selected individual city
    routes to review and observed office operations affecting street operations and
    carriers delivery mail on routes during street delivery.

We conducted this performance audit from October 2012 to May 2013, in accordance
with generally accepted government auditing standards and included such tests of
internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on November 19 and December 20,
2012, and February 21 and May 10, 2013. We included their comments where
appropriate.

We relied on data obtained from Postal Service database systems, such as DOIS and
EDW. We did not directly audit the systems but performed limited data integrity review
to support our data reliance. We assessed the reliability of delivery points’ data by
reviewing existing information about the data and the system that produced it, as well as
interviewing agency officials knowledgeable about the data. We determined the data
were sufficiently reliable for the purposes of this report.




                                                       9
City Delivery — Street Efficiency Southern, Pacific,                               DR-AR-13-004
 and Western Areas


Prior Audit Coverage

                                                              Final     Monetary Impact (in
                                                             Report         Millions)
        Report Title           Report Number                   Date
City Delivery – Street        DR-AR-12-003                  8/16/2012   $9,138,265
Efficiency Capital District
Report Results:
The report determined the Capital District has opportunities for enhanced street
delivery efficiency. We determined the Capital District could use about 12 fewer
minutes of street time per day on each carrier route (or 110,740 workhours) and save
about $4.5 million annually. Our review of selected delivery units determined that
management did not always reinforce Postal Service policies and procedures for
supervising city delivery street operations at delivery units, allowing for some
inefficient delivery practices. Management agreed with our findings and
recommendations.

City Delivery – Street        DR-AR-12-004        8/16/2012             $8,874,598
Efficiency Louisiana
District
Report Results:
The report determined the Louisiana District has opportunities for enhanced street
delivery efficiency. We determined the Louisiana District could use about 12 fewer
minutes of street time per day on each carrier route (or 107,550 workhours) and save
about $4.4 million annually. Our review of selected delivery units determined that
management did not always reinforce Postal Service policies and procedures for
supervising city delivery street operations at delivery units, allowing for some
inefficient delivery practices. Management agreed with our findings and
recommendations.

City Delivery – Street       DR-AR-12-001          6/5/2012           $6,840,240
Efficiency San Diego
District
Report Results:
The report determined the San Diego District has opportunities for enhanced street
delivery efficiency. An increased focus on efficiency could allow management to
reduce approximately 83,930 carrier street workhours. Our review of selected delivery
units determined that management did not always reinforce Postal Service policies
and procedures for supervising city delivery street operations at delivery units,
allowing for some inefficient delivery practices. Management agreed with our findings
and recommendations.




                                                       10
        City Delivery — Street Efficiency Southern, Pacific,                                                 DR-AR-13-004
         and Western Areas



                                    Appendix B: Monetary and Other Impacts

                                                     Monetary Impacts
                 Recommendation                         Impact Category                            Amount
                       1                             Funds Put to Better Use 23                   $28,080,953

        We estimated the potential cost avoidance of $28,080,953 in funds put to better use by
        reducing workhours at delivery units in the selected districts (see Table 1).

                   Table 1. Southern, Pacific, and Western Areas’ Workhour Savings

                                                      Estimated           Annual Estimated               2-Year Projection
                                                          City              Potential Cost               of Potential Cost
                                                       Delivery            Avoidance from                 Avoidance from
                                                      Workhours               Overtime                       Overtime
     Area           District           Routes           Saved                Workhours                      Workhours
                  Houston                3,057         117,760                    $4,815,206                    $9,711,667
  Southern
                  Oklahoma               1,233           7,314                        299,069                      603,186
    Pacific       Bay-Valley             3,130         145,621                      5,954,443                   12,009,364
                  Portland               1,799          48,156                      1,969,099                    3,971,425
   Western
                  Dakotas                  860          21,648                        885,187                    1,785,311
     Total                             10,079          340,499                   $13,923,004                   $28,080,953
Source: OIG Analysis.

        We calculated funds put to better use for reducing city carrier workhours using the
        nationwide city carrier overtime rate of $40.89 for FY 2013, with an escalation factor of
        1.7 percent for the 2-year projection.

        The 340,499 annual workhour savings represent 20,426,940 minutes (340,499 hours
        multiplied by 60 minutes). Dividing the more than 20 million minutes by 10,079 routes in
        the selected districts and then dividing by 303 annual delivery days equals a savings of
        about 7 minutes per route per day.

                                                        Other Impacts
                      Recommendation                        Impact Category                       Amount
                    Safeguarding of Assets                   Assets at Risk 24                     $13,466




        23
          Funds that could be used more efficiently by implementing recommended actions.
        24
          Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of
        inadequate internal controls.


                                                                11
City Delivery — Street Efficiency Southern, Pacific,             DR-AR-13-004
 and Western Areas


                             Appendix C: Management's Comments




                                                       12
City Delivery — Street Efficiency Southern, Pacific,        DR-AR-13-004
 and Western Areas




                                                       13
City Delivery — Street Efficiency Southern, Pacific,        DR-AR-13-004
 and Western Areas




                                                       14
City Delivery — Street Efficiency Southern, Pacific,        DR-AR-13-004
 and Western Areas




                                                       15
City Delivery — Street Efficiency Southern, Pacific,        DR-AR-13-004
 and Western Areas




                                                       16
City Delivery — Street Efficiency Southern, Pacific,        DR-AR-13-004
 and Western Areas




                                                       17
City Delivery — Street Efficiency Southern, Pacific,        DR-AR-13-004
 and Western Areas




                                                       18
